                                      raud
Office of the Inspector General                                           January 2000 Issue
                                                                            Published Quarterly


 Inside This        The OIG Investigations Unit has embarked on a renewed effort to detect
                    contractor fraud. Experience has shown the overwhelming majority of
     Issue          government contractors are honest and conduct their activities in compliance
                    with federal procurement rules. However, the case examples shared in this
 Press Releases
     from the
                    bulletin demonstrate how far some unscrupulous individuals and contractors
  IG Community      will go to perpetrate millions of dollars of fraud each year. These examples
                    will also show that in the majority of cases the fraud scheme was detected by
 Fraud Indicators   dedicated government employees who displayed a questioning attitude and
                    were willing to go the extra mile by looking behind the paper. You will also
   “Real” Fraud     find in this edition of the Fraud Bulletin sections on “Fraud Indicators,”
     Schemes        “Fraud Schemes” and “Identity Theft.”
  Identity Theft
                    Protection of our country’s health and safety is a shared responsibility. We
                    hope this bulletin will sensitize NRC employees to common fraud schemes
                    and lead to detection of contractors committing fraud against NRC.
                    Working together, we can ensure that NRC receives a dollar of goods and
                    services for every dollar spent.



DOD Employee Indicted on False Claims
                                                     allegedly submitting a false claim to the U.S.
                      DEFENSE CRIMINAL               Government. The indictment was a result of
                      INVESTIGATIVE                  an investigation that the employee allegedly
                      SERVICE                        submitted a false claim for reimbursement of
                                                     moving expenses in connection with the
                      A one count indictment         employee’s relocation from Columbus, OH, to
                      was returned against a         Battle Creek, MI.
                      DOD employee for

                                               -1-
Specifically, the employee claimed that he was          having met all requirements. Customers,
accompanied by his lawful wife and children on          including the DoD and the Connecticut
various dates from May 1998 to August 1998,                                    National Guard,
during his permanent change of station                                         were then billed
relocation, which entitled him to a larger per                                 for the work not
diem or daily living expense reimbursement.                                    performed.
The investigation disclosed that the employee’s
wife and children did not accompany him on                                           If convicted, the
many dates listed in the claim. The employee                                         owner faces a
also claimed paying rent and a breach of lease                                       maximum of 30
penalty on an apartment in Ohio. The                                                 years in prison
investigation disclosed that the employee did                                        and fines of up to
not make any such payments. The false claim                                          $1 million. The
caused losses to the United States Department           charges are the result of a ten-month
of Defense in excess of $10,000. If convicted,          investigation into activities of AAA.
the employee faces a maximum sentence of 5
years in prison and a $250,000 fine.
                                                         DTC Settles for $400,000
30 Years in Prison and $1M
Fine Possible                                           DEFENSE CRIMINAL INVESTIGATIVE
                                                        SERVICE
DEFENSE CRIMINAL INVESTIGATIVE
SERVICE                                                 On November 15, 1999, Diverse Technologies
                                                        Corporation (DTC) Clinton, MD and the
On October 13, 1999, the owner of a fire and            United States Attorney's Office, Baltimore,
safety company was indicted by a Federal Grand          MD, reached an out of court settlement in the
Jury in Hartford, CT on two counts of mail              amount of $400,000. The settlement
fraud and one count of violating the Hazardous          agreement resolves allegations of systematic
Materials Transportation Uniform Act.                   mischarging by DTC on two U.S. Navy
                                                        contracts, which were for computer services
                        According to the                                        for the Defense
                        indictment, the owner                                   Finance         and
                        of AAA Fire and                                         Accounting Service.
                        Safety, provided                                        These contracts were
                        inspection services for                                 administered by the
                        fire protection                                         Defense Contract
                        systems. The owner                                      Management
                        and AAA falsely                                         C o m m a n d ,
                        represented to                                          Baltimore, MD. The
                        customers that                  contractor is an 8(a) company in the Small
                        federally mandated,             Business Administration program.         The
hydrostatic testing had been performed. The             company admitted no wrongdoing in the
equipment was then fraudulently stamped as              settlement agreement.

                                                  -2-
                                                         Fabrication, Inc., with regard to repairs of U.
DTC was awarded two U.S. Navy time and                   S. Naval ships.
materials type contracts which called for the
development of software for the Navy's financial         He received a sentence of six months
accounting system known as Standard                      incarceration, ordered to make restitution of
Accounting and Reporting System (STARS).                 $423,689.50, and serve three years supervised
                                STARS is used            release and pay a special assessment of $100.
                                in the DFAS
                                accounting                                         Tidelands Testing
                                system. Each of                                    previously entered
                                the contracts                                      a plea of guilty to
                                were valued at                                     one count of
                                approximately                                      paying kickbacks.
                                $3 million.                                        Tidelands Testing
                                                                                   was placed on
                                 Information                                       probation for a
                                 was developed                                     period of five
that alleged that DTC officials were directing                                     years, ordered to
employees, through written memoranda, to                                           pay restitution of
charge their time to the Navy contracts while            $423,689.50 jointly with the president of the
performing administrative duties or working on           company and a special assessment of $600.
other contract proposals. Additionally, DTC was
alleged to have used an overhead rate on both            Gamma Tech Industries previously entered a
contracts that was fully burdened with the               plea of guilty to one count of paying
expenses of establishing an office in                    kickbacks. Gamma Tech Industries was
Mechanicsburg, PA, when in fact the office was           placed on probation for a period of five years,
never established.                                       ordered to pay restitution of $167,231 and a
                                                         special assessment of $200.
  Two Plead Guilty to                                    These sentences are the result of an
  Kickbacks                                              investigation into the payments of kickbacks
                                                         to Stanley by subcontractors working on the
                                                         San Diego waterfront in order to receive work.
DEFENSE       CRIMINAL       INVESTIGATIVE               Seven other individuals or entities have
SERVICE                                                  previously entered guilty pleas related to this
                                                         investigation and are currently awaiting or
On November 4, 1999, the president, Tidelands            have been sentenced.
Testing and former partner of Gamma Tech,
Industries, San Diego, CA, was sentenced in
U.S. District Court, Southern District of                Conflict of Interest
California, San Diego, CA. He previously plead
guilty to two counts of paying kickbacks to a
Contract Administrator, Pacific Ship Repair and          NUCLEAR REGULATORY
                                                         COMMISSION

                                                   -3-
                                                         coordinated this investigation with the
The OIG investigated an allegation regarding an          Maryland State Police, as well as another
NRC contractor with an organizational conflict           Federal agency which had a similar contract
of interest that violated NRC contract                   with the security firm. The NRC subsequently
provisions. Specifically, the NRC contractor             terminated its contract with the firm, and
was reviewing work performed for the nuclear             awarded a new contract to another security
industry, while acting as a subcontractor for            firm.
another company that was performing work for
the industry. Through interviews of former
company officials and reviews of subpoenaed              GSA & NRC Dispute
records, the OIG confirmed that for about a year         Contractor Billing
and a half, the NRC contractor had a verbal
agreement with another company to
internationally market strainer blockage work.           NUCLEAR REGULATORY COMMISSION
The contractor’s agreement with the NRC
strictly prohibited the contractor’s affiliation         The OIG initiated an investigation concerning
with companies doing work for the nuclear                an allegation that errors were detected in the
industry. Because the NRC was satisfied with             type and number of recycled materials
the work performed under the contract, there             reported by World Recycling Company, the
was no financial loss to the government.                 Government’s recycling program contractor in
Accordingly, the US Attorney’s office declined           Metropolitan Washington, DC. Through a
prosecution of this case.                                contract with the General Services
                                                         Administration (GSA), the contractor pays the
                                                         Government for recyclable paper collected
 Contractor Operating Without                                                      from Federal
 a State License                                                                   agencies in the
                                                                                   Metropolitan area.
                                                                                   However, the OIG
NUCLEAR REGULATORY COMMISSION                                                      learned that the
                                                                                   contractor failed to
The OIG received an anonymous complaint that                                       report NRC pickups,
an NRC contractor providing security guard                                         thereby causing a
services was operating without the State                                           loss to the NRC.
business license that was required under the                                       Although the NRC
                         terms of the NRC                successfully resolved the contract
                         contract. In                    irregularities, the GSA OIG questioned
                         addition, the contract          whether the recycling program contractor was
                         required the                    also under-reporting or improperly
                         contractor’s                    downgrading recyclable paper pickups at other
                         employees to carry              g o v e r n m e n t
                         firearms, but the               facilities. The NRC OIG and GSA OIG
                         employees did not               participated in a joint investigation and
                         possess valid State             determined             that
firearms permits. As a result, the OIG

                                                   -4-
                                                         $2 million civil fine -- following their guilty
 False Claim on Small Entity                             pleas in June to an array of illegal activities
 Status                                                  including false billing to the U.S. Navy of
                                                         approximately $800,000.
                                                         The vice-president of the two was ordered to
NUCLEAR REGULATORY COMMISSION                            serve five months in jail and five months of
                                                         home monitoring and pay a $30,000 fine.
The OIG has conducted a series of                        Three other defendants sentenced in the case
investigations involving the review of NRC               were ordered to pay $20,000 fines to both St.
materials license files to identify potential            Mary's County and Prince George's County in
instances of fraud related to a special program          Maryland in connection with the case.
under which certain licensees may claim small
entity status and qualify for a reduced NRC              An investigation led by the Naval Criminal
annual license fee. In reviewing a sampling of           Investigative Service and the Prince George's
the small entity claims made by such licensees,          County Department of Public Health revealed
the OIG identified several companies that may            that the two firms illegally trucked garbage
have falsely claimed small entity status by              collected from the Navy's Patuxent River
indicating that their gross annual receipts were         Naval Air Station, Indian Head Naval
under the prescribed limit. In three of the              Ordnance Station and the U.S. Naval
investigations, the OIG determined that the              Academy in Annapolis to Virginia. The cost
licensee improperly claimed the small business           to the firms of final dumping in Virginia was
entity status and improperly obtained a reduced          lower than it would have been in Maryland.
license fee.                                             However, the Stevens companies billed the
                                                         Navy as if the Maryland rates were being
                                                         incurred, pocketing the difference. The
 Trash-Hauling Firms Fined                               disposal companies also operated unlicensed
 $3.3 Million in Fraud Against                           transfer stations for the moving of garbage
                                                         from vehicle to vehicle, creating a public
 U.S. Navy                                               nuisance and polluting a tributary of Henson's
                                                         Creek in Maryland.
NAVAL CRIMINAL             INVESTIGATIVE
SERVICE                                                  The firms pleaded guilty to federal charges
                                                         including conspiracy, making false claims,
Two Maryland trash-hauling firms, A.W.                   making false statements and violation of the
Stevens and Sons Waste Disposal Systems, Inc.,           Clean Water Act. A guilty plea also was
                              and St. Mary's             entered to a charge of falsifying a statement to
                              Disposal                   the U.S. Department of Transportation's
                              Systems,                   Office of Motor Carrier and Highway Safety
                              Inc.,were fined            regarding the hours the companies' drivers
                              a total of $3.3            spent behind the wheel.
                              million -- a
                              $1.3 million
                              criminal
                              penalty and a

                                                   -5-
 Fire Protection Company                                   Chemist and Supervisor Pled
 Owner Pleads Guilty To                                    Guilty to Falsifying
 Falsifying Cylinder-Testing                               Laboratory Analyses
 Records
                                                          ENVIRONMENTAL              PROTECTION
                                                          AGENCY

DEPARTMENT OF TRANSPORTATION                              On July 21, 1999, a laboratory chemist and a
                                                          laboratory supervisor, each pled guilty to
The owner of Taylor Fire Protection Sales and             making a false statement and aiding and
Service of Manila, Arkansas, pleaded guilty to            abetting others in the commission of making
charges stemming from his false confirmation              a false statement. In May 1999, the chemist
that special tests had been performed on                  and supervisor of CompuChem
                    cylinders carrying                    Environmental Corporation of Cary, North
                    compressed gas.                       Carolina, were charged with conducting
                                                          improper gas chromatography/mass
                     The owner, who was                   spectrometer analyses on        samples taken
                     charged with tampering               from hazardous waste sites nationwide and
                     with markings the on                 falsely certifying that the analyses complied
                     hazardous-material                   with all EPA contract requirements. The EPA
                     containers, faces up to five         relies on the testing data provided by
                     years' imprisonment and a                                        laboratories
                     fine of up to $250,000.                                          participating in
                                                                                      the Contract
An investigation by the Department of                                                 Laboratory
Transportation, Office of the Inspector General                                       Program to assess
and the Department's Research and Special                                             threats to public
Programs Administration found that Earnest had                                        health and the
falsely marked compressed gas cylinders                                               environment and
handled by his firm to show they had been                 to determine where and when remedial action
"hydrostatically" tested in accordance with DOT           is needed. This investigation was conducted
regulations, when they had not been. In a                 by Special Agents of the Environmental
hydrostatic test, the cylinder is subjected to            Protection Agency Office of the Inspector
twice the internal gas pressure it would have to          G e n e r a l .
contain in everyday service. Such testing,
required at least once every five years, can
reveal fatigue not detectable through visual
inspection. There is danger of explosion, with
potential for death or serious injury, among
cylinders inadequately tested for metal fatigue.




                                                    -6-
                                                          made false statements to obtain two loans and
                                                          a credit line, totaling $293,000. He falsely
NASA Contractor Employee                                  claimed that he had made an equity investment
Pleads Guilty                                             in his business, submitted false statements
                                                          pertaining to the use of the loan proceeds, and
                                                          submitted balance sheets containing false
NATIONAL AERONAUTICS AND SPACE                            information about the business. The business
ADMINISTRATION                                            was a wholesaler of specialty coffee and related
                                                          equipment. The investigation was conducted
On November 24, 1999, a NASA contractor                   jointly with the Federal Bureau of Investigation
employee with Orbital Sciences Corp., pled                (FBI) and originated from a referral to OIG
guilty to one misdemeanor count of                        from SBA's Massachusetts District Office.
Unauthorized Use of a NASA Computer.
Nance admitted he downloaded pornographic
images from the Internet to NASA computers at
the Goddard Flight Space Center (GSFC).                      Misuse of Official Position to
Sentencing is scheduled for March 22, 2000.                  Defraud the Government
The investigation was conducted by Special
Agents of the NASA Office of Inspector
General, with assistance from the Goddard                 SOCIAL SECURITY ADMINISTRATION
Security Office.
                                                          Special Agents from the Office of
                                                          Investigations, Kansas City, Missouri,
 False Statement on Loan                                  Suboffice conducted an investigation of two
 Application                                              Social Security Administration (SSA)
                                                          employees who misused their official positions
                                                          to defraud the SSA of $174,312.30. As a
SMALL BUSINESS ADMINISTRATION                             Benefit Authorizer, the principal SSA employee
                                                          had the ability to cause SSA benefit checks to
The president of a company located in Quincy,             be authorized and mailed to SSA beneficiaries.
Massachusetts, was sentenced to serve five                For a period of over 1 year, the employee
months of incarceration, five months of home              caused unauthorized SSA checks to be made
detention, and three years of supervised release.         payable to herself and her relatives, friends, and
                       He was also ordered to             acquaintances. The employee solicited a fellow
                       pay restitution totaling           Payment Center worker to further the scheme.
                       $216,838 to the Small              The principal employee ensured the second
                       Business Administration            employee received a sizeable sum of money by
                       and two other victims.             means of unauthorized SSA benefit checks if
                       He previously pled guilty          she agreed to participate in the scheme. The
                       to five counts of making           second employee agreed to receive the proceeds
false statements on loan applications to a                from these unauthorized checks but was afraid
federally insured financial institution.                  to have the checks made payable to her for fear
According to the charges to which he pled                 of being arrested. Consequently, the second
guilty, he had provided false documents and               employee asked a friend to agree to be the

                                                    -7-
named payee on the fraudulently issued SSA               contracts.      The former comptroller was
checks in return for the payment of a sum of             sentenced to two months in a half-way house,
money. The friend agreed; so the second                  six months home detention, and three years
employee paid the friend $100 for negotiating            probation. The project officer was sentenced to
the first check. On later checks, the second             three years probation, six months home
employee paid the friend approximately 10                confinement, and a $2,000 fine.
percent of the face value of the checks (about           On April 28, 1999, Sharp pled guilty to making
$300 on average). In all, the second employee            false statements to the Department of Labor
knowingly received and converted to her                  (DOL) in connection with a Department of
personal use $20,993.10 as proceeds from                 Veterans Affairs (VA) program. Sharp aided
unauthorized SSA benefit checks. As a result             and abetted the making and preparation of false
of the Kansas City Suboffice investigation, both         certified payrolls and the submission of these
employees were terminated from their                     false payrolls to the DOL. The comptroller pled
positions. The principal SSA employee was                guilty to conspiring to make false statements to
sentenced to serve 15 months in prison, 3 years          the DOL. He prepared and submitted false
probation, and ordered to pay restitution to SSA         certified payrolls to the DOL on a VA and US
in the amount of $174,312.30. The second SSA             Army contract. The project officer’s guilty plea
employee was sentenced to five years                     is based on false testimony before the federal
supervised probation and ordered to pay                  grand jury regarding the submission of false
restitution to SSA in the amount of $20,993.10.          certified payroll to the government.

                                                         The investigation revealed that Sharp failed to
 Sentencing for Making False                             pay its employees at the prevailing wage rates.
 Statements                                              Investigators from the USPS Office of Inspector
                                                         General (OIG) were able to determine that
                                                         during the time Sharp performed work under a
P O S T A L       S E R V I C E                          USPS contract valued at approximately $2
On September 23, 1999, Sharp Construction                million, he obtained approximately $14,000
Company, Inc., (Sharp), the former comptroller           from the USPS through the submission of false
for Sharp Construction, and a former project             certified payroll reports.
                         manager for Sharp,
                         were sentenced for
                          making false payroll
                         reports in connection
                         with federally funded
                         government contracts.

                      Sharp Construction
                      was sentenced to three
                      years probation and a
                      $25,000 fine and paid
                      restitution. Currently
suspended, Sharp also may be permanently
barred from receiving future government

                                                   -8-
                                                         charged in a four count indictment for making
 Bribery by President of                                illegal cash payments to a USPS official, who
 Cleaning Company                                       was responsible for oversight and award of
                                                        certain cleaning contracts for five Jersey City
                                                        Post Offices. According to the indictment, he
POSTAL        SERVICE                                   paid the Postal official to ensure that
                                                        ShineBrite would continue to get the month-to-
The President of ShineBrite, Incorporated               month cleaning contracts. Each count of this
(ShineBrite), was indicted for bribing a United         indictment carries a maximum of 15 years
States Postal Service (USPS) official. He was           incarceration and a $250,000 fine.


                 “BE ALERT FOR FRAUD INDICATORS”

The Government employee, especially                     contractor has used actual cost as a basis for
procurement officials and Contracting                   the proposal.      The actual unit cost is
Officer Representatives, must be alert for              supported by a purchase order history. The
possible instances of fraud. The best way to            Government official performs a statistical
accomplish this is to be familiar with fraud            sample of the proposed bill of material and
indicators. A fraud indicator only means that           requests the supporting documentation for the
a given situation is susceptible to fraudulent          selected items. The contractor provides
practices. It does not mean that fraud exists.          copies of vendor invoices. The official
The NRC employee’s role is not to prove                 closely reviews the copies and notices some
fraud (the intent to deceive the Government)            suspicious print type which does not match
but to refer potential instances of fraudulent          that of the rest of the invoice. The official
practices to the NRC’s Office of Inspector              expands the review and requests the original
General (OIG), if he or she believes that               invoice/document.       Upon receiving the
evidence indicating fraud has been found.               originals from the contractor, the
The OIG is trained in numerous techniques               Government official notes the following:
for determining whether the intent to deceive
NRC exists. Remember, fraud is most likely                  1. The unit price on the original invoices
to occur when the opportunity for undetected            do not match the unit prices on the copies.
misconduct outweighs the chance for being               Apparently, some have been altered by
caught.                                                 putting additional numbers in front of the
                                                        price or by moving decimals.

    FRAUD INDICATORS FOR THE
            QUARTER

FALSIFICATION OF DOCUMENTS
         The Scenario. During a proposal
review, the Government official is reviewing
support for a proposed unit cost. The

                                                  -9-
    2. Discount terms at the bottom of the              heavily on the results of that review and used
invoice have been “whitened out” so the                only the purchase order history to verify unit
employee would not notice an offered 20%               prices. The contractor took advantage of the
discount.                                              situation by altering selected invoices.

      Fraud Indicators                                 The Government employee should
                                                       periodically reverify the integrity of the
-- Original documentation consistently                 accounting and operating system he or she
unavailable for the Government Official’s              relies on. This can be done by doing
review.                                                transactional and compliance testing on a
                                                       selected basis. In this case, it would involve
-- Consistently poor, illegible copies of              requesting original documentation from the
supporting documentation.                              contractor to support the purchase order
                                                       history. In other cases, the government
-- Different supporting documents provided             employee may want to get third party
for the same items with unit prices varying            confirmations from the actual vendors. This
widely for the same part, for no obvious               step might only be done on one or two
reason.                                                transactions per proposal. The employee
                                                       must be alert to changes in how a system
General Comments.           The Government             works after he or she has reviewed and
employee had performed a review of the                 accepted it. Reliance must be based on
purchasing system two years earlier. During            continual review.
that review, no significant deficiencies were
noted. The Government employee relied


                BEWARE: These Fraud Schemes Really Happen!

We would like to share with you some crime             hasn't actually been stolen, you don't become
prevention tips concerning fraud schemes               aware of the theft of the data until after a
we've seen recently. We all are familiar with          number of charges have been made. You
the new rules for traveling with our United            should avoid letting the card out of your
States Government (USG) VISA cards and                 sight if at all possible when you use your
for making small purchases with the USG                credit cards.
BankCards. NRC has been victimized by a
type of credit card fraud which makes use of           Don't call back 809 numbers. You may
a device known as a skimmer. A skimmer is              receive an email with a subject line of
a small device about the size of a pager and           "ALERT" or "Unpaid account" and to call
can be worn on the belt. With a quick swipe            Mike Murray at Global Communications.
of your Visa card or your USG BankCard,                You may get a long recording or someone
someone can capture all the data from the              who speaks broken English. They will try and
magnetic strip on your card and use that data          keep you on the line as long as possible at
to encode a cloned card. Since your card               $25 per minute. Another permutation is

                                                -10-
either a phone message or a page asking you               i      Unusual purchases on your credit
to call for info about a sick family member;                     cards
to tell you someone you know has been                     i      Being denied a loan you qualify for
arrested or died; or that you won a prize.                i      Bank statements don’t agree with
These numbers are similar to 900 numbers                         personal records
except they aren't required to tell you of the            i      Unexplained changes in your bank
charges for the call. The 809 area code is                       access codes
located in the British Virgin Islands.                    i      Missing credit card bills or other mail
                                                          i      Unusual calls regarding your personal
Y2K: Sometime after the new year, the law                        or financial information
enforcement community is anticipating                     i      Unexplained charges on phone or
criminals will make use of this opportunity to                   other consumer accounts
try and get confidential information from
you. If someone posing as a representative of             If you suspect that someone is illegally using
OCIO calls you and says they need your                    your identity or making charges in your
password and USAID to repair a Y2K                        name, immediately call the organization
problem with your account, don't give it to               handling the account and follow up with a
them! OCIO will never ask you for your                    letter.   Also, contact your local police
password over the phone. The same holds                   department.
true for calls from your bank or other
financial institutions. If they call to tell you          Preventing Identity Theft
there is a Y2K problem with your account,
don't give any sensitive or personal                      ‚      Shred all credit card, bank and other
identifying information out over the phone.                      financial statements
                                                          ‚      Always use secure WWW sites for
Protecting Yourself                     from                     Internet purchases
                                                          ‚      Do not discuss financial matters on
Identity Theft                                                   wireless or cellular phones
                                                          ‚      Write or call the Department of
Identity Theft and Credit Card Fraud are the                     Motor Vehicles to have your personal
fastest growing White Collar Crimes in the                       information protected from disclosure
nation.                                                   ‚      Do not use your mother’s maiden
                                                                 name as a password on your credit
Identity theft is a considerable problem for                     cards
anyone, but is especially for those people                ‚      Be wary of anyone calling to
who rely on ATM, credit cards and other                          “confirm” personal information
remote access financial services.                         ‚      Thoroughly review all bank, credit
                                                                 card and phone statements for
Detecting Identity Theft                                         unusual activity
                                                          ‚      Monitor when new credit cards,
The first line of defense is awareness. Look                     checks or ATM cards are being
out for:                                                         mailed to you and report any that are
                                                                 missing or late


                                                   -11-
‚      Close all unused credit/bank accounts              To prevent identity theft shred all papers
       and destroy old credit cards and shred             containing financial and personal information
       unused credit card offers                          before you throw them out. Also, make a list
‚      Remove your social security number                 of all credit cards, ATM cards, and bank
       from checks, Drivers ID or other ID                accounts and the phone numbers associated
‚      Always ask for the carbon papers of                with each and keep this list in a safe place.
       credit purchases
‚      Do not leave outgoing credit card                  What to do: Here are the initial actions
       payments in your mailbox                           victims of identity theft should take to begin
‚      Do not carry your Social Security                  the investigative and recovery process.
       Card in your wallet unless needed
‚      ORDER         YOUR         CREDIT                  1. Report the crime to your local civilian
       REPORT ONCE A YEAR AND                             police immediately. File a detailed police
       LOOK FOR ANY ANOMALIES                             report. Give them as much documented
                                                          evidence and information as possible. Keep
                                                          a copy of the incident report and give it to
If you are a victim of identity theft, you
                                                          creditors, banks, and merchants who often
must document everything.
                                                          ask for a copy of a police report as part of the
                                                          fraud investigation.
Identity theft involves someone utilizing your
identifying information in order to acquire               2. Call the fraud unit at each of the big
goods or services in your name through the                three credit bureaus to notify them of
use of credit or debit cards, checks, or other            what has happened. Request copies of your
documents. In the worst cases, these identity             credit reports and ask the bureaus to place a
thieves make enormous unauthorized                        “fraud alert” in your files along with a
purchases. By law, once you report the loss,              message asking future creditors to verify by
theft or fraud, you have no further                       telephone any applications added to your
responsibility for unauthorized charges. In               report. Follow up with a written letter.
any event, your maximum liability under
federal law is $50 per card, and most issuers             3. Do not pay any bill or charges that
will waive the fee. The bad news is that                  result from identity theft. Contact all
clearing up your credit records requires                  creditors immediately with whom your name
significant effort and can take a year or even            has been used fraudulently - by phone and in
longer.                                                   writing.

By monitoring your personal finances and                  4. Write a “victim” statement of 100
following the suggestions in this bulletin, you           words or less for each of the credit bureaus
may be able to prevent or minimize losses                 to include with your credit file.
due to issues of fraud and identity theft. It is
important to act quickly, effectively and                 5. Get copies of your credit reports,
assertively to minimize the damage.                       following your initial report, monthly for at
                                                          least several months to check for any new



                                                   -12-
fraudulent accounts. The credit agency                 lookout for anyone ordering a new passport
should provide these for free.                         in your name.

6. Call all of your credit card issuers to             13. As appropriate, contact an attorney to
close your accounts with the notation                  help ensure that you are not victimized again
“account closed at consumer’s request” and             while attempting to resolve this fraud. In
get new credit cards with new numbers.                 order to prove your innocence, be prepared to
                                                       fill out affidavits of forgeries for banks,
7. Contact your financial institution and              credit grantors, and recipients of stolen
request new bank account numbers, ATM                  checks.
cards, and checks. Put stop payments on any
outstanding checks that you are unsure of.             14. Be persistent and follow up. Be aware
                                                       that these measures may not entirely stop new
8. Give the bank, credit card and utility              fraudulent accounts from being opened by the
companies a NEW secret password and                    imposter.
PIN numbers for new accounts. Do not use
old PINs, passwords or your mother’s maiden            NOTE: Keep detailed written records of all
name.                                                  conversations and actions taken to recover
                                                       from identity theft. Include names, titles,
9. Request a new driver’s license with an              date/time, phone number, exact
alternate number from the Department of                circumstances and action requested. Note
Motor Vehicles, and ask that a fraud alert be          time spent and any expenses incurred. Send
placed on your old one. Fill out a DMV                 confirmation correspondence by certified
complaint form to begin the fraud                      mail (return receipt).
investigation process.
                                                                   Know Your Rights
10. Contact the Social Security
Administration and advise them of your                 For more information about your credit
situation. Ask them to flag your social                rights, write to Public Reference, Federal
security number for fraudulent use. Also               Trade Commission, Washington, DC 20580
order a copy of your Earnings and Benefits             and ask for the free pamphlets:
Statement and check it for accuracy.
Changing your SSN is a difficult process and           •      Credit Billing Errors
should only be used as a last resort.                  •      Fair Credit Billing
                                                       •      Lost or Stolen: Credit and ATM
11. Contact the post office and utility                       Cards
companies to ensure that no billing or                 •      Credit and Charge Card Fraud
address changes are made to your account
without a written request from you. Request            Or call 1-877-FTC-HELP or surf to
that all changes be verified.                          www.consumer.gov/idtheft on the Internet.

12. If you have a passport, notify the
passport office in writing to be on the


                                                -13-
Special Issues Related to Identity Theft               800-685-1111
                                                       Experian to Report Fraud
Occasionally, victims of identity theft are            888-397-3742
wrongfully accused of crimes committed by              Experian Order Credit Report
the imposter or attempts are made to hold              800-301-7195
them liable for civil judgments. If this               Trans Union to Report Fraud
occurs, contact the court where any civil              800-680-7289
judgment was entered and report that you are           Trans Union Order Credit Report
a victim of identity theft. If you are                 800-916-8800
subjected to criminal charges as a result,
quickly provide proof to the prosecutor and            Fraudulent Check Use
investigative agency.
                                                       If you’ve had stolen checks or bank accounts
The stress commonly experienced during                 set up fraudulently in your name, call these
identity theft victimization and recovery can          check guarantee companies:
be quit severe. Victims should consider
seeking counseling assistance as an option,            CheckRight            800-766-2748
not only for yourself, but family members              Equifax               800-437-5120
who may be equally traumatized.                        TeleCheck             800-710-9898

Final Note: Your credit rating should not be           They can flag your file so that counterfeit
permanently affected, and no legal action              checks will be refused.
should be taken against you.         If any
merchant, financial institution or collection          Here’s a way YOU can help fright fraud at the
agency suggests otherwise, simply restate              NRC. Make the right choice.
your willingness to cooperate, but don’t
allow yourself to be coerced into paying
fraudulent bills.
                                                                       Call the

IMPORTANT NUMBERS TO REPORT                                           today.
SSN AND IDENTITY THEFT
                                                            It’s your right... and duty.
Social Security Administration        Fraud
Hotline 1-800-269-0271

To order your Social Security Earnings &
Benefits Statement call 1-800-772-1213

Credit Reporting Bureaus

Equifax To Report Fraud
800-525-6285

Equifax Order Credit Report

                                                -14-
1-800-233-3497
Or you may write:
    USNRC/OIG
 Mail Stop T5D-28
Washington, DC 20555




                       -15-
